Department of Homeland Security
   Ofﬁce of Inspector General


      Transportation Security Administration 

              Privacy Stewardship 





OIG-09-97                                August 2009
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      August 28, 2009

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the Transportation Security Administration’s plans and activities to
instill and promote an effective culture of privacy in compliance with federal privacy
laws and regulations. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1

Background ..........................................................................................................................2

Results of Audit ...................................................................................................................5


     Commitment to Privacy .................................................................................................5 

     Policies on the Proper Handling of Personally Identifiable Information.......................7 

     Compliance With Federal Privacy Laws and Regulations ............................................7 

     Established Processes for Notice, Complaints, and Redress for Individuals...............12 

     Privacy Awareness and Training .................................................................................14 

     Improvements to Privacy Effectiveness.......................................................................15 


     Recommendations........................................................................................................18 

     Management Comments and OIG Analysis ................................................................18 


Figures
     Figure 1:              TSA’s Purposes for Personally Identifiable Information ......................2 

     Figure 2:              DHS Privacy Framework ......................................................................3 

     Figure 3:              Organizational Committee to Privacy ...................................................5 

     Figure 4:              Privacy Compliance Management.........................................................8 

     Figure 5:              Notice, Complaints, and Redress for Individuals................................12 

     Figure 6:              TSA Privacy Initiatives .......................................................................14 

     Figure 7:              Improvements to Privacy Awareness and Training ............................17 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................19 

     Appendix B:           Management Comments to the Draft Report .......................................20 

     Appendix C:           Programs Reviewed During This Audit...............................................23 

     Appendix D:           Cross Reference of DHS Privacy Framework With Component 

                           Privacy Officer Duties .........................................................................24 

     Appendix E:           Cross Reference of DHS Privacy Framework With Criteria Applied to 

                           TSA Privacy Stewardship ....................................................................25 

     Appendix F:           Fair Information Practice Principles ....................................................27 

     Appendix G:           TSA Culture of Privacy Survey ...........................................................28 

     Appendix H:           Laws, Regulations, Directives, and Guidance Related to TSA Privacy 

                           Stewardship..........................................................................................29 

     Appendix I:           Major Contributors to This Report ......................................................30 

     Appendix J:           Report Distribution ..............................................................................31 


Abbreviations
     DHS                   Department of Homeland Security 

     DHS TRIP              DHS Traveler Redress Inquiry Program

     FIPPs                 Fair Information Practice Principles 

Table of Contents/Abbreviations

  FISMA 	    Federal Information Security Management Act
  IT        	information technology
  OIG 	      Office of Inspector General
  OMB 	      Office of Management and Budget
  OPPC 	     Transportation Security Administration, Office of Privacy Policy and
            Compliance
  PII 	      personally identifiable information
  PIA 	      Privacy Impact Assessment
  PTA 	      Privacy Threshold Analysis
  SORN 	     System of Records Notice
  TSA       	Transportation Security Administration
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                 We performed an audit of the Transportation Security
                 Administration’s (TSA) privacy stewardship. Our audit objective
                 was to determine whether TSA’s plans and activities instill and
                 promote a privacy culture and comply with federal privacy laws
                 and regulations. As part of this audit, we surveyed 2,285 TSA
                 employees on their knowledge of the Privacy Act, the proper
                 handling of personally identifiable information, privacy incident
                 response, and privacy stewardship. The results of this survey are
                 discussed throughout the report. Appendix A provides our
                 purpose, scope, and methodology.

                 TSA has made progress in implementing a framework that
                 promotes a privacy culture and complies with federal privacy laws
                 and regulations. Specifically, TSA demonstrated its organizational
                 commitment to privacy by designating the Office of Privacy Policy
                 and Compliance (OPPC) to oversee its privacy functions. In
                 addition, OPPC is strengthening TSA’s culture of privacy through
                 coordination with managers of programs and systems that contain
                 personally identifiable information to meet reporting requirements,
                 perform privacy risk impact assessments, prepare public
                 notifications of systems of records, and enforce privacy rules of
                 conduct. Further, OPPC has established processes for reviewing
                 and reporting privacy incidents, issuing public notices, addressing
                 complaints and redress for individuals, and implementing and
                 monitoring privacy training for employees.

                 TSA can improve its privacy program by implementing automated
                 privacy-specific tools for testing and monitoring. Further, TSA
                 can implement approaches to provide supplemental and job-
                 specific privacy awareness or training activities. We are making
                 two recommendations to the TSA Administrator to strengthen the
                 privacy program.




               Transportation Security Administration Privacy Stewardship

                                        Page 1
Background
               The Privacy Act of 1974, as amended, imposes various
               requirements on agencies whenever they collect, use, or
               disseminate personally identifiable information (PII).
               Additionally, federal laws, regulations, directives, and guidelines
               set the minimum standards and procedures for handling PII.
               Appendix H lists some requirements specific to TSA privacy
               stewardship.

               TSA facilitates the security and freedom of movement of the
               nation’s air, surface, and maritime transportation systems. This
               requires coordinating or overseeing the security of highways,
               buses, mass transit systems, railroads, pipelines, ports, and
               approximately 450 U.S. airports. More than 40,000 TSA
               employees stationed throughout the world interact daily with the
               public or collect, use, and disseminate PII about the public. In
               2009, for example, TSA implemented the Secure Flight program
               which will eventually require a substantial volume of PII to screen
               airline passengers. According to the U.S. Department of
               Transportation’s Bureau of Transportation Statistics, U.S. airlines
               carried 649.9 million domestic passengers on 9.3 million flights in
               2008.

               TSA defines PII as any information that permits the identity of an
               individual to be directly or indirectly inferred, including any
               information that is or can be linked to that individual, regardless of
               whether the individual is a U.S. citizen, legal permanent resident,
               or a visitor to the United States. Figure 1 shows the purposes for
               which TSA collects PII for 10 TSA programs that we reviewed
               during this audit.

                   TSA’s PURPOSES FOR PERSONALLY IDENTIFIABLE INFORMATION
                                                   Examples
                                 THREAT ASSESSMENT & CREDENTIALING
                    �   Perform security threat assessments: alien flight students; airline crew
                        members; aviation travelers; hazardous material drivers
                    �   Confirm identity of national transportation system workers via biometric
                        credential
                    �   Screen cargo transported by passenger aircraft
                                             LAW ENFORCEMENT
                    �   Protect flight deck against acts of criminal violence or air piracy
                    �   Share transportation security intelligence with federal, state, and local
                        law enforcement
                                                       REDRESS
                    �   Provide a one-stop mechanism for individual redress
               Figure 1. TSA’s Purposes for Personally Identifiable Information
               Source: OIG Analysis of Privacy Impact Assessments and System of Records Notices
               for 10 PII programs. (See appendix C for details on these programs.)




             Transportation Security Administration Privacy Stewardship 


                                       Page 2

                           The Department of Homeland Security (DHS) Privacy Office
                           promotes the growth of privacy programs within the DHS
                           components as a means of addressing privacy. Further, the DHS
                           Privacy Office is implementing a privacy framework that
                           establishes the roles and responsibilities for component privacy
                           offices. Figure 2 illustrates the DHS privacy framework.




                           Figure 2. DHS Privacy Framework
                           Source: DHS Privacy Office


                           Privacy stewardship includes establishing privacy requirements
                           prior to program initiation, performing privacy risk assessments
                           and mitigation, and integrating privacy safeguards into program
                           operations. Responsible stewardship of PII through each of the
                           functional areas of an agency privacy program is fundamental to
                           instilling a culture of privacy.1 Promotion of an effective culture
                           of privacy leads to embedded shared attitudes, values, goals, and
                           practices for complying with the proper handling of PII and the
                           recognition that the public and employees should have protections
                           of how their PII is used.

                           The Fair Information Practice Principles (FIPPs) are a set of
                           principles, rooted in the tenets of the Privacy Act, that form the
                           basis of TSA’s privacy compliance policies and procedures for
1
 A privacy program is a comprehensive approach to managing privacy compliance and risk in DHS programs and
activities. (Adapted from NIST Special Publication 800-39, Managing Risk from Information Systems: An
Organizational Perspective, April 2008.)



                         Transportation Security Administration Privacy Stewardship

                                                    Page 3
                             governing the use of PII.2 Also part of the privacy framework are
                             five functional areas that promote a culture of privacy and
                             compliance with legal requirements. (See appendix D for
                             component privacy officer duties and appendix E for legal
                             requirements, including TSA directives, that relate to these
                             functional areas.)

                                  �    Organizational Commitment to Privacy: Establish
                                       organizational oversight and implement privacy activities.
                                  �    Policies for Proper Handling of PII: Define and promote
                                       privacy policies and procedures.
                                  �    Privacy Compliance Management: Implement tools and
                                       processes to ensure privacy compliance (including
                                       reporting requirements, privacy impact assessments,
                                       systems of records notices, privacy incident handling, and
                                       privacy rules of conduct).
                                  �    Notice, Complaints, and Redress for Individuals:
                                       Establish processes for notices, complaints, and redress for
                                       individuals.
                                  �    Privacy Awareness and Training: Support privacy
                                       requirements through privacy awareness and training.




2
  DHS Privacy Office, Privacy Policy Guidance Memorandum 2008-01, December 29, 2008, adopted the Fair
Information Practice Principles as its privacy policy framework for application by DHS programs and activities. (See
appendix F for descriptions of each of the principles.)



                          Transportation Security Administration Privacy Stewardship

                                                       Page 4
Results of Audit
     Commitment to Privacy
          TSA has an organizational commitment to privacy stewardship. Figure 3
          illustrates three factors indicating TSA’s commitment to privacy that
          include the designation of a privacy point of contact for oversight,
          development of internal privacy stewards, and managers promoting
          privacy compliance.




          Figure 3. Organizational Commitment to Privacy
          Source: OIG analysis from TSA documentation.


          Designation of a Privacy Point of Contact

          In 2004, confronted with privacy challenges from collecting large volumes
          of PII, TSA appointed a privacy officer to address privacy issues and
          issued guidance to employees and managers regarding their responsibility
          to respect and protect privacy. The goals were to instill and promote a
          culture of privacy throughout TSA’s operations, and to protect and respect
          the privacy of individuals affected by TSA’s transportation activities.

          In 2006, TSA designated the director of the Office of Privacy Policy and
          Compliance (OPPC) to assume TSA’s privacy function. To assist in
          creating a privacy program, TSA added two staff with privacy-related
          experience and certifications to OPPC. TSA also added a program-level
          privacy contact for Secure Flight and embedded four privacy specialists
          into its operation.

          OPPC coordinates and oversees privacy protections according to TSA
          Management Directive 2100.2, Privacy and Information Collection
          Policy, by taking a service-oriented approach to working with TSA
          personnel and setting a goal to acknowledge inquiries within 24 hours. As
          a measure of OPPC’s outreach, 92% of surveyed employees indicated that
          they are aware of OPPC’s presence and roles; 82% of surveyed employees
          consider privacy to be important.


                Transportation Security Administration Privacy Stewardship

                                          Page 5
Also, OPPC reaches out to external groups to gather information,
improves agency visibility as a privacy leader, and promotes
organizational involvement in privacy efforts, participation on privacy-
related boards, presentations at conferences, and sharing of best practices.
Further, OPPC participates on the DHS Privacy Office’s committees, such
as DHS best practices and privacy contract clauses.

Development of Internal Privacy Stewards

OPPC is responsible for monitoring TSA compliance with privacy law and
instilling a culture of privacy. However, since OPPC has a small staff,
developing privacy stewards within TSA can multiply the effectiveness of
OPPC’s privacy awareness and outreach. Privacy stewards are individuals
outside OPPC who promote compliance with privacy requirements and
support a culture of privacy at job-specific levels. Progress has been made
in developing privacy stewards by implementing privacy awareness
activities and reaching groups within TSA; 45% of surveyed employees
consider themselves privacy stewards.

Working with internal groups is one way OPPC promotes the concept that
everyone in TSA is responsible for privacy. OPPC participates in various
meetings and integrated program teams and provides guidance on the
privacy implications and interpretation of privacy criteria. Program and
security managers told us that they regularly contact OPPC for privacy
assistance and guidance.

OPPC interacts with privacy stewards to gain a better understanding of
privacy risk in mission-related programs and how these risks relate to the
overall level of TSA’s commitment to privacy. The development of an
organization-wide cadre of privacy stewards is important in helping
employees who handle PII to understand that PII is a critical data asset
that must be fully aligned with program objectives.

Managers Promoting Privacy

Managers promote privacy to ensure that anyone entrusted with PII
properly uses, protects, and disposes of PII. TSA program managers and
supervisors take a proactive approach to privacy stewardship. For
example, some program managers maintain standard operating procedures
on employing proper PII handling. In compliance with TSA Management
Directive 3700.4, Handling Sensitive Personally Identifiable Information,
supervisors remind employees about proper PII handling and hold
themselves and their workforce accountable.



     Transportation Security Administration Privacy Stewardship

                              Page 6
Policies on the Proper Handling of Personally Identifiable
Information
      As required by TSA Management Directive 3700.4, OPPC issues policies
      and procedures to define privacy compliance and promote its overall
      privacy mission. Management communicates its views and requirements
      to employees through internal privacy policies and procedures. OPPC
      publishes these privacy policies and guidance on its intranet site. Almost
      75% of surveyed employees who collect, handle, view, or maintain PII
      said that they look for privacy policies and procedures on the intranet
      privacy website.

      OPPC issued TSA Management Directive 3700.4 to describe privacy
      requirements and provide examples of what would be considered privacy
      incidents. OPPC’s guidance on privacy incident reporting is consistent
      with Office of Management and Budget (OMB) and DHS Privacy Office
      requirements. Almost 80% of surveyed employees were able to identify a
      privacy incident correctly from a list of five examples. Nearly 95% of
      surveyed employees said that they knew the reporting procedures for
      suspected privacy incidents.

      TSA Management Directive 3700.4 also explains how employees can
      implement methods for handling sensitive PII and requires TSA
      employees to review their responsibilities annually to comply with the
      Privacy Act and DHS and TSA privacy policies. Almost 80% of surveyed
      employees demonstrated knowledge by correctly identifying the
      requirements of the Privacy Act and TSA privacy policies.

      DHS 4300A, Sensitive Systems Handbook, requires TSA to provide a
      security and privacy statement at every publicly accessible electronic entry
      point and display a warning banner on its intranet. TSA has external
      privacy notices and internal network banners to provide pertinent
      information to the public and to remind employees of the importance of
      their responsibilities for privacy compliance. OPPC reviews these
      statements and banners for compliance with privacy requirements.

Compliance With Federal Privacy Laws and Regulations
      TSA Management Directive 2100.2 establishes OPPC’s responsibility for
      an internal privacy management program to ensure that all PII gathered
      under the Privacy Act is handled properly. OPPC executes plans and
      activities to comply with federal privacy laws, directives, and the FIPPs.
      For example, OPPC assists TSA program managers in integrating FIPPs
      into their programs that require PII.



           Transportation Security Administration Privacy Stewardship

                                    Page 7
                   Figure 4 shows five areas for privacy compliance management in which
                   program managers and supervisors participate. As a measure of OPPC’s
                   effectiveness in cultivating an understanding of the various legal
                   requirements in dealing with PII, all 20 managers of the programs we
                   reviewed were able to articulate the privacy requirements for these areas.
                   We address OPPC’s efforts to ensure legal compliance in the following
                   sections.




                   Figure 4. Privacy Compliance Management
                   Source: DHS Privacy Office

                   Privacy Impact Assessment

                   The E-Government Act of 2002 requires agencies to conduct Privacy
                   Impact Assessments (PIA) for information systems undergoing a
                   certification and accreditation that collect, maintain, or disseminate PII.3
                   TSA follows a two-part process for identifying and assessing information
                   technology systems that collect or maintain PII.

                   During the first part of this process, managers complete a Privacy
                   Threshold Analysis (PTA), which includes a description of the system,
                   what PII, if any, is collected or used, and from whom. OPPC provides
                   guidance and assistance to the managers regarding the development and
                   preparation of the PTA, and approval of new or enhanced programs that
                   may have privacy implications. OPPC forwards the completed PTA to the
                   DHS Privacy Office to assist in identifying programs in DHS that use PII,
                   evaluating changes to existing systems, determining the need for a PIA,
                   and determining whether an existing System of Records Notice (SORN)
                   will cover the new or enhanced program.4



3
  The PIA requirement of the E-Government Act has been extended by Office of Management and Budget
Memorandum 03-22, Guidance for Implementing the Privacy Provisions of the E-Government Act of 2002, dated
September 26, 2003, to include technology that predates the Act if that technology has since undergone a significant
change.
4
  The SORN is published in the Federal Register. A system of records is a group of any records about an individual
under agency control from which information is retrieved by that individual’s name, identifying number, symbol, or
other identifying particular assigned to the individual. (5 U.S.C. § 552a(a)(5); TSA Management Directive 2100.2.)



                           Transportation Security Administration Privacy Stewardship

                                                        Page 8
During the second part of the process, managers complete a PIA to
identify and assess privacy risks as precursors to determine what level of
protections or controls are required to mitigate risks to PII. OPPC assists
in the review of the proposed data elements to identify opportunities for
PII minimization during the conduct of new and existing PIAs. The PIA
includes the identification and analysis of the proposed collection
methodology, analytical uses of data, privacy risks, and methods to
mitigate risks. Almost 82% of surveyed managers indicated that they
understand the PIA process and requirements.

OPPC reviews the completed PIAs, makes updates, and forwards
documentation to the DHS Privacy Office. Once reviewed and approved
by the DHS Privacy Office, unclassified PIAs are published in the Federal
Register and on the DHS Privacy Office’s internet website.

As required by the E-Government Act, TSA maintains an electronic
inventory of 75 PII systems as of October 2008. To keep the PII
inventory current, OPPC provides oversight of collection, use,
dissemination, and maintenance of PII at TSA by scheduling annual
discussions with program and system managers. (See appendix C for
information regarding PIAs for the 10 PII programs that we reviewed.)
OPPC formalized an annual review process as another analytical layer in
TSA’s PII review. This process requires written responses to standardized
questions regarding the status of the PIA and SORN. Further, this process
is intended to stimulate thinking about the FIPPs and privacy safeguards
and identify key discussion items and areas for further review.

System of Records Notice

The Privacy Act mandates that agencies publish a SORN when they
maintain PII in a system of records. The SORN explains how the public
can exercise rights granted through the Privacy Act regarding the PII in
that system of records. OPPC provides guidance and assistance to
managers regarding the development and approval of systems of records.
Almost 74% of surveyed managers and employees demonstrated
knowledge of SORNs. (See appendix C for information regarding SORNs
for the 10 PII programs that we reviewed.)

Further, OPPC reviews compliance with public notice requirements for
systems of records or exemptions through the established process of
reviewing PIAs and SORNs. The Privacy Act allows government
agencies to exempt certain records from the access and amendment
provisions. If an agency claims an exemption, it must issue a Notice of
Proposed Rulemaking to explain why a particular exemption is claimed.




     Transportation Security Administration Privacy Stewardship

                              Page 9
                   All of TSA’s Privacy Act exemptions are published in the Federal
                   Register and on the DHS Privacy Office internet website.

                   Privacy Incident Handling

                   DHS Action Memorandum, Designation of Component Level Privacy
                   Officers, dated May 3, 2007, establishes that component-level privacy
                   officers are the points of contact to handle privacy incident response.5
                   TSA Management Directive 3700.4 establishes TSA’s processes for
                   reporting a privacy incident, detecting and minimizing the loss of privacy
                   data, and notifying appropriate parties as required by the DHS Privacy
                   Office’s Privacy Incident Handling Guidance. Periodically, OPPC
                   broadcasts messages with reminders that each employee controls the first
                   step in preventing privacy violations.

                   OMB M-07-16 requires agencies to report all incidents involving PII to
                   the United States Computer Emergency Readiness Team within an hour of
                   the incident’s discovery.6 TSA had already established a core breach
                   response group in January 2007 as recommended by OMB Memorandum,
                   Recommendations for Identity Theft Related Data Breach Notification,
                   dated September 20, 2006. Further, as required by DHS Privacy Office’s
                   Privacy Incident Handling Guidance, OPPC reports suspected privacy
                   incidents after reviewing them. TSA inspectors investigate the incidents,
                   as necessary.

                   TSA complies with the OMB M-07-16 requirement for agencies to
                   develop a notification policy and plan. As part of the notification
                   procedures, OPPC follows an internal review process to evaluate the
                   reasonable risk of harm associated with the incident to the affected
                   individuals, and then issues notices to affected individuals, as appropriate.7
                   As a best practice, the DHS Privacy Office adopted OPPC’s template for
                   providing notification of a privacy incident as the model for all DHS
                   components.




5
  A privacy incident results from the loss of control, compromise, unauthorized disclosure, unauthorized acquisition, 

unauthorized access, or any similar term referring to situations where persons other than authorized users, and for an 

other than authorized purpose, have access or potential access to PII in usable form, whether physical or electronic. 

The term encompasses both suspected and confirmed incidents involving PII that raise a reasonable risk of harm. 

(DHS Privacy Office, Privacy Incident Handling Guidance, § 2.4.11.) 

6
  The United States Computer Emergency Readiness Team (US-CERT), a partnership between public and private 

sectors, also coordinates DHS incident response activities. 

7
  Reasonable risk of harm refers to a likelihood that an individual on whom information is maintained may experience a 

substantial harm, embarrassment, inconvenience, or unfairness. (DHS Privacy Office, Privacy Incident Handling 

Guidance, § 2.4.13.)




                          Transportation Security Administration Privacy Stewardship

                                                       Page 10
                   Reporting Compliance

                   As required by OMB M-06-20, FY 2006 Reporting Instructions for the
                   Federal Information Security Management Act [(FISMA)] and Agency
                   Privacy Management, OPPC provides updated information—including
                   incident response—to the DHS Privacy Office on its privacy management
                   program as part of the overall reporting to OMB.8 Congress and OMB
                   review these results to evaluate agency-specific and government-wide
                   security and privacy performance. In addition to its system security
                   requirements, FISMA directs agencies to identify privacy risks intrinsic to
                   each of its systems, develop ways to mitigate those risks, and report results
                   of ongoing system assessments to OMB.

                   Privacy requirements and security controls are in different program areas
                   within TSA. Therefore, OPPC consults with program officials, the chief
                   information security officer, and information system security managers to
                   review all circumstances that may reveal weaknesses in the privacy
                   program for which remedial action, additional training, or development of
                   internal guidance or policy may be appropriate.

                   Privacy Rules of Conduct

                   The Privacy Act requires privacy rules of conduct for persons involved in
                   the design, development, operation, or maintenance of any system of
                   records.9 OMB M-07-16, Safeguarding Against and Responding to the
                   Breach of Personally Identifiable Information, underscores the importance
                   of privacy rules of conduct and the adoption of penalties for
                   noncompliance. TSA disseminates its rules of privacy conduct and
                   consequences to all employees and contractors involved with PII.

                   As required by the Privacy Act, TSA Management Directive 3700.4,
                   Handling Sensitive Personally Identifiable Information, identifies
                   responsibilities of TSA employees and requires their compliance with the
                   Privacy Act and all DHS and TSA policies and regulations. This directive
                   requires TSA supervisors to ensure that subordinates annually review their
                   responsibilities in relation to the privacy policies and rules. TSA
                   Management Directive 1100.73-5, Employee Responsibilities and
                   Conduct, requires protection of information. Also, these rules of conduct
                   are provided during the required online annual training. Some TSA
                   programs require the acceptance of rules of privacy conduct prior to
                   access to computers.
8
  OMB Memorandum 06-20, FY 2006 Reporting Instructions for the Federal Information Security Management Act 

and Agency Privacy Management, dated July 17, 2006, provides reporting instructions for any physical or electronic 

incidents involving the loss of or unauthorized access to PII. 

9
  Privacy Act of 1974, 5 U.S.C. § 552a (e)(9) (Establish Rules of Conduct.)




                          Transportation Security Administration Privacy Stewardship

                                                       Page 11
                      DHS Management Directive 0470.2, Privacy Act Compliance, requires
                      that employees be advised of the possible consequences for violations of
                      the Privacy Act. OPPC’s goal is to ensure that the workforce understands
                      the data it handles and the consequences for privacy policy violation.
                      Almost 86% of surveyed employees indicated that they understand that
                      there are penalties for violating the Privacy Act.

                      In response to a violation of TSA’s rules of conduct, supervisors execute
                      remedial, corrective, or preventative actions. When notified of privacy
                      violations, OPPC follows up with supervisors to ensure that corrective
                      action, such as retraining or issuing letters of counseling, is taken. When
                      OPPC finds a systemic issue, it improves awareness through broadcast
                      messages or training. Also, OPPC recommends disciplinary action. For
                      example, when an individual broadcast PII to all persons in the office,
                      although only one staff member needed to know such information, the
                      violator was required to receive additional training on privacy information
                      handling and was issued a letter of reprimand.

            Established Processes for Notice, Complaints, and Redress for
            Individuals
                      Three privacy-related processes engage individual members of the public.
                      As indicated in Figure 5, these processes address notice, complaints, and
                      redress.




                      Figure 5. Notice, Complaints, and Redress for Individuals
                      Source: DHS Privacy Office


                      Processes for Notice for Individuals

                      The Privacy Act requires agencies to protect individuals by ensuring that
                      personal information collected by federal agencies is limited to that which
                      is legally authorized and necessary and is maintained in a manner that
                      precludes unwarranted intrusions upon individual privacy.10 TSA

10
     Privacy Act of 1974, 5 U.S.C. § 552a (e)(3) (Privacy Act Statement.)



                             Transportation Security Administration Privacy Stewardship

                                                         Page 12
                    provides a Privacy Act statement to all persons asked to provide personal
                    information about themselves that will go into a system of records. OPPC
                    reviews all TSA Privacy Act statements for compliance with the Privacy
                    Act. DHS 4300A, Sensitive Systems Handbook, requires that DHS
                    components present a security and privacy statement at every publicly
                    accessible electronic entry point to agency websites. OPPC reviews the
                    security and privacy statements before they are published on TSA’s
                    internet websites.

                    Processes for Complaints for Individuals

                    Section 803 of the Implementing Recommendations of the 9/11
                    Commission Act of 2007 established additional privacy reporting
                    requirements for DHS regarding reviews and complaints. For the
                    purposes of reporting, complaints are written allegations of harm or
                    violation of privacy compliance requirements filed with the DHS Privacy
                    Office or TSA.11 After addressing the privacy complaints or issues, OPPC
                    forwards this information to the DHS Privacy Office in its quarterly
                    reporting. Information on privacy complaints is available for public view
                    on the DHS Privacy Office internet website.

                    TSA publishes information on how the public can issue a complaint or
                    request redress (including correction) on its internet websites. As required
                    by the Implementing Recommendations of the 9/11 Commission Act of
                    2007 § 803, TSA categorizes complaints as follows: (1) process and
                    procedure issues, such as consent, appropriate notice at the time of
                    collection, notices provided in the Federal Register, rules, or SORNs;
                    (2) operational issues related to general privacy concerns and concerns not
                    related to transparency or redress; (3) referrals to another federal agency
                    or appropriate organization; or (4) redress issues related to appropriate
                    access, correction, and redress, excluding the Freedom of Information Act
                    and Privacy Act requests for access.12 For the first three categories, OPPC
                    is a point of contact for privacy complaints regarding process and
                    procedures, operations, and referrals. Redress is handled separately, as
                    described below.

                    Processes for Redress for Individuals

                    For redress and correction of their information, the Traveler Redress
                    Inquiry Program (TRIP) is a single point of contact for individuals who
                    have inquiries, seek resolution regarding difficulties they experienced

11
   DHS Privacy Office, Privacy Policy Guidance Memorandum 2007-01, allows complaints from U.S. Citizens and

Lawful Permanent Residents, as well as visitors and aliens. (January 19, 2007, amended January 7, 2009.) 

12
   Freedom of Information Act allows the right to request access to federal agency records, except those covered by any 

of nine exemptions. See 5 U.S.C. § 552(b). 




                           Transportation Security Administration Privacy Stewardship

                                                       Page 13
                   during their travel screening at transportation hubs, or need correction of
                   misidentifications during a credentialing process or traveler screening at
                   airports.13 Travel difficulties include being denied or delayed airline
                   boarding; denied or delayed entry into or exit from the United States; and,
                   continually referred for additional and secondary security screening. From
                   July 31, 2007 through July 31, 2008, DHS TRIP received 31,206 redress
                   requests; 2,100 of which were privacy related.

                   TSA also handles redress for transportation sector workers seeking
                   credentials under TSA regulations. This population is estimated to exceed
                   7 million workers and covers populations, such as hazmat drivers and
                   transportation and airport workers. TSA has established both appeals and
                   waiver processes, and has received roughly 79,000 requests since
                   inception.

         Privacy Awareness and Training
                   DHS Management Directive 0470.2 requires that all employees be made
                   aware of, and comply with, the Privacy Act. Toward that end, OPPC
                   implements and monitors privacy awareness and training so that PII
                   handlers understand risks, their own role in implementing privacy policies,
                   and ways to mitigate those risks. As Figure 6 indicates, OPPC issues
                   weekly newsletters, monthly privacy reminders, and posters to promote
                   privacy awareness.




                   Figure 6. TSA Privacy Initiatives
                   Source: TSA documentation




13
   To address concerns about the high incidence of mistakes in the TSA watch lists, in 2004 Congress directed TSA to
develop a prescreening process that would not produce a large number of false positives and would give misidentified
airline passengers an effective way to correct the information in the database. In 2006, TSA’s Office of Transportation
Security Redress implemented the traveler redress website. The program evolved into the DHS Traveler Redress
Inquiry Program (DHS TRIP) on February 21, 2007. DHS TRIP is managed by TSA and assisted by staff from various
participating components.



                          Transportation Security Administration Privacy Stewardship

                                                       Page 14
     Almost 83% of surveyed employees indicated positive effects of OPPC’s
     privacy awareness, training, and guidance on their jobs. OPPC sends
     email reminders to alert employees to general privacy events and issues,
     posts privacy information on its intranet site for employee reference, and
     broadcasts messages on specific privacy guidance. TSA employees
     believe that the “Privacy Man” poster series is twice as effective as email
     or broadcast messages and recommend continuation of the poster
     campaign. One program—Secure Flight—has reminders in a section of its
     internal newsletter, “The Privacy Corner.” Also, OPPC integrated privacy
     requirements into checklists used by airport and field inspectors.

     OMB M-07-16 requires privacy training for new employees and annual
     privacy training for all employees. TSA uses standardized privacy
     materials from the DHS Privacy Office’s “Culture of Privacy Awareness”
     training to meet these requirements. According to OPPC, nearly 100% of
     employees completed their 2008 privacy training. OPPC receives a
     monthly report from the TSA Online Learning Center listing employees
     who have not completed their required privacy training within a month of
     reaching their annual training threshold. OPPC contacts their supervisors
     to ensure that employees complete the training.

     OPPC provides special training for program managers, information system
     security officers, and security officers. Almost 56% of surveyed
     employees also received advanced or specialized privacy training. Some
     managers or supervisors give their employees additional privacy training.
     Other TSA programs, such as Secure Flight, provide training based on
     roles and operation-specific rules of conduct. In addition to the required
     DHS Privacy Office’s “Culture of Privacy Awareness” training, Secure
     Flight provides three additional levels of training for its personnel:
     “Privacy in Action” for Secure Flight managers and employees,
     reinforcement training, and advanced training.

Improvements to Privacy Effectiveness

     TSA can improve its commitment to privacy effectiveness by having the
     Office of the Chief Information Officer (OCIO) implement automated
     privacy-specific tools for testing and monitoring. Further, TSA can
     implement innovative approaches to provide supplemental and job-
     specific privacy awareness or training activities.

     Automated Privacy-Specific Tools for Testing and Monitoring

     The Privacy Act requires federal agencies to establish appropriate
     administrative, technical, and physical safeguards to protect PII against



          Transportation Security Administration Privacy Stewardship

                                   Page 15
                  any anticipated threats or hazards to its security or integrity. Further, the
                  FIPPs require that TSA protect PII through appropriate security safeguards
                  against risks such as loss, unauthorized access or use, destruction,
                  modification, or unintended or inappropriate disclosure. TSA
                  Management Directive 2100.2 establishes OPPC’s oversight responsibility
                  for PII and for privacy policy implementation. However, the OCIO is
                  responsible for securing data, including PII, for all TSA systems and
                  services. According to DHS Management Directive 0007.1, Information
                  Technology Integration and Management, OCIO directs timely delivery of
                  mission information technology (IT) services in direct support of a
                  component’s mission, goals, objectives, and programs, and provides
                  management and administration of all component IT resources and assets
                  to meet mission, department, and enterprise program goals.

                  Because automated privacy tools for testing and monitoring are not
                  provided by the OCIO, OPPC has been checking periodically for PII data
                  leakage by performing manual searches on TSA’s file servers that should
                  not contain PII or should be password-protected to limit access. Data
                  leakage is the exposure or transmission of PII that permits unauthorized
                  access or disclosure. PII data was found that should not have been
                  accessible through the periodic checks. Further, according to TSA, data
                  spills, unprotected emails of personnel information, and lost folders
                  containing PII have occurred.

                  Although OPPC implements privacy policies and interacts with personnel,
                  OCIO cannot electronically monitor privacy behavior continuously and
                  measure the strength of PII protections. TSA has not purchased tools and
                  technologies to automate privacy protections because further research and
                  collaboration by OPPC and OCIO is necessary to identify requirements
                  and appropriate approaches within the TSA computing environment.
                  Without privacy-focused measurements and testing, TSA cannot compare
                  the levels of PII protections across different systems containing PII and
                  improve overall privacy data protection and monitoring.

                  More Effective Privacy Awareness and Training Are Needed

                  To promote and improve daily awareness of employees’ privacy
                  responsibilities, OMB M-07-16 recommends that agencies augment
                  training using creative methods, job-specific communications, and
                  advanced training commensurate with the employees’ responsibilities.14
                  According to DHS Action Memorandum, dated May 3, 2007, OPPC is
                  responsible for implementing and monitoring training for TSA employees

14
   Office of Management and Budget Memorandum 07-16, Safeguarding Against and Responding to the Breach of
Personally Identifiable Information, dated May 22, 2007.



                        Transportation Security Administration Privacy Stewardship

                                                   Page 16
                    in coordination with the DHS Privacy Office. TSA provides required
                    computer-based annual privacy training for employees and offers
                    specialized privacy training to groups such as program and security
                    managers. TSA augments required privacy training through some
                    awareness activities, such as the “Privacy Man” poster series. However,
                    OPPC, based on perceived organizational needs, has implemented a
                    limited scaled privacy awareness campaign.15 Secure Flight works with
                    OPPC to improve program-level understanding of how to integrate
                    privacy requirements into its operations.

                    However, out of 875 survey responses that provided written comments,
                    469 employees wanted improvements in privacy awareness and training.
                    These improvements, illustrated in Figure 7, address five categories: vary
                    delivery method of privacy training (26%); provide more job-specific
                    privacy training (17%); develop more privacy awareness activities (26%);
                    increase frequency of privacy training (26%); and, improve
                    communication of privacy requirements (5%).


                                        5%
                                                                        Vary delivery method of
                              17%                      26%
                                                                        privacy training
                                                                        Provide more job-specific
                                                                        privacy training
                                                                        Develop more privacy
                                                                        awareness activities
                                                                        Increase frequency of
                                                                        privacy training
                              26%                                       Improve communication
                                                     26%                of privacy requirements




                    Figure 7. Improvements for Privacy Awareness and Training
                    Source: OIG analysis


                    TSA relies on computer-based privacy training from the DHS Privacy
                    Office to meet the Privacy Act annual training requirement. The primary
                    delivery methods for TSA’s privacy communications and policies are also
                    electronic. However, the computerized delivery method does not meet the
                    unique needs of the TSA workforce. TSA has a large workforce spread
                    over a wide geographical area, and an estimated 80% of employees have
                    limited access to computers. The computerized delivery may limit the
                    overall effectiveness of the training.




15
   A comprehensive privacy awareness campaign could include privacy awareness week; privacy cleanup day; training
classes tailored for specific privacy needs; privacy events; email advisories; newsletters; periodicals, intranet privacy
daily news; posters; do and don’t lists; warning banners/messages; and reward programs that include privacy letters of
appreciation.



                           Transportation Security Administration Privacy Stewardship

                                                        Page 17
Extending beyond the control of OPPC, organizational commitment,
collaboration, and resources are necessary to implement a large-scale,
innovative privacy awareness and training program. According to 74% of
surveyed employees, TSA needs more frequent and effective privacy
awareness, job-specific training, and privacy communications. TSA
employees need to be continually reminded of the importance in
protecting PII and preventing privacy incidents.

Recommendations
       We recommend that the TSA Administrator:

       Recommendation #1: Direct the Office of the Chief Information
       Officer to implement automated privacy-specific tools for testing
       and monitoring.

       Recommendation #2: Implement approaches to provide
       supplemental and job-specific privacy awareness or training
       activities for the TSA workforce.

Management Comments and OIG Analysis
       We obtained written comments on a draft of this report from the
       TSA Acting Administrator. We have included a copy of the
       comments in appendix B.

       The Acting Administrator concurred with our findings and
       recommendations. We consider our recommendations resolved,
       but open pending our review of actions taken by TSA.




     Transportation Security Administration Privacy Stewardship

                              Page 18
Appendix A
Purpose, Scope, and Methodology

                   Our objective was to determine whether TSA’s plans and activities
                   instill and promote a privacy culture and comply with federal privacy
                   laws and regulations. As background for this audit, we researched and
                   reviewed federal guidance and laws related to TSA’s responsibilities
                   for privacy protections. We reviewed testimonies, TSA
                   documentation, and reports related to TSA’s privacy, information
                   technology security, and program management.

                   We interviewed officials from the DHS Office of the Chief
                   Information Officer and the DHS Privacy Office. With the latter, we
                   discussed its implementation of the DHS Privacy Framework and
                   duties for component privacy officers. In addition to interviewing
                   TSA’s Office of Privacy Policy and Compliance and chief
                   information security officer, we interviewed more than 65 program
                   managers and information system security professionals at TSA
                   headquarters and field sites regarding privacy activities. We surveyed
                   2,285 TSA employees on their knowledge of the Privacy Act, PII
                   handling, privacy incident response, and privacy stewardship. Of this
                   survey group, 875 employees offered written comments on the status,
                   issues, suggestions, or challenges in TSA privacy stewardship. (See
                   appendix G.)

                   We selected a sample of 16 systems (that support 10 programs) from
                   a total of 75 systems that handle personally identifiable information.
                   We reviewed technical information, system security documentation,
                   architectures, financial justifications, privacy impact assessments,
                   system of records notices, application of the Fair Information Practice
                   Principles, and TSA and program-level application of privacy
                   policies.

                   Our analysis is based on direct observation, review of applicable
                   documentation, and interviews. We conducted this performance audit
                   between August 2008 and May 2009 in accordance with generally
                   accepted government auditing standards. The standards require that
                   we plan and perform the audit to obtain sufficient, appropriate
                   evidence to provide a reasonable basis for our findings and
                   conclusions based on our audit objectives. We believe that the
                   evidence obtained provides a reasonable basis for our findings and
                   conclusions based on our audit objectives.

                   The principal OIG points of contact for the audit are Frank Deffer,
                   Assistant Inspector General for Information Technology Audits at
                   (202) 254-4041, and Marj Leaming, Director, System Privacy
                   Division at (202) 254-4172. Major OIG contributors to the audit are
                   identified in appendix I.



                 Transportation Security Administration Privacy Stewardship

                                          Page 19
Appendix B
Management Comments to the Draft Report




                Transportation Security Administration Privacy Stewardship 


                                         Page 20

Appendix B
Management Comments to the Draft Report




                Transportation Security Administration Privacy Stewardship 


                                         Page 21

Appendix B
Management Comments to the Draft Report




                Transportation Security Administration Privacy Stewardship 


                                         Page 22

Appendix C
Programs Reviewed During This Audit

 Program Name & Mission              Privacy Impact Assessment               System of Records Notice
                                  THREAT ASSESSMENT & CREDENTIALING
Alien Flight Student Program          Transportation Security                 Transportation Security Threat
(AFSP)                                Administration's Alien Flight           Assessment System DHS/TSA
Conduct the security threat           Student Program (Amended),              002, November 8, 2005, 70 FR
assessments of alien flight           December 22, 2006                       33383
students
Crew Vetting Program (CVP)            Crew Vetting Program, July 28,          Transportation Security Threat
Conduct security threat               2004                                    Assessment System DHS/TSA
assessments of airline crew                                                   002, November 8, 2005, 70 FR
members                                                                       33383
Hazardous Material                    TSA Hazardous Materials                 Transportation Security Threat
Fingerprints (HAZPRINT)               Endorsement, Amendment,                 Assessment System DHS/TSA
Perform threat assessments of         September 16, 2005                      002, November 8, 2005, 70 FR
hazardous material drivers                                                    33383
Secure Flight (SF)                    Transportation Security                 Secure Flight Records DHS/TSA
Match identifying information of      Administration's Secure Flight          019, November 9, 2007, 72 FR
aviation travelers against the        Program, October 21, 2008               63711
terrorist watch list
Transportation Worker                 Transportation Security                 Transportation Security Threat
Identification Credential             Administration's Transportation         Assessment System DHS/TSA
(TWIC)                                Worker Identification Credential        002, November 8, 2005, 70 FR
Provide a biometric credential to Program Final Rule, October 5,              33383
confirm national transportation       2007
system worker identity
Indirect Air Carrier                  Air Cargo Security Requirements,        Transportation Security Threat
Management System (IACMS)             November 12, 2008                       Assessment System DHS/TSA
Screen cargo transported                                                      002, November 8, 2005, 70 FR
aboard passenger aircraft                                                     33383
Known Shipper Management              Air Cargo Security Requirements,        Transportation Security Threat
System (KSMS)                         November 12, 2008                       Assessment System DHS/TSA
Screen cargo transported                                                      002, November 8, 2005, 70 FR
aboard passenger aircraft                                                     33383
                                              LAW ENFORCEMENT
Federal Flight Deck Officer           Transportation Security                 Federal Flight Deck Officer
Dashboard (FFDO)                      Administration’s Federal Flight         Record System DHS/TSA 013,
Deputize volunteer aircraft           Deck Officer Program, January 10,       August 18, 2003, 68 FR 49496
personnel to defend the flight        2008
deck against acts of criminal
violence or air piracy
Tactical Information Sharing          Transportation Security                 Transportation Security Threat
System (TISS)                         Administration's Tactical               Assessment System DHS/TSA
Share transportation security         Information Sharing System, June        002, November 8, 2005, 70 FR
intelligence with federal, state,     1, 2008                                 33383
and local law enforcement
                                                     REDRESS
Traveler Redress Inquiry              The Department of Homeland              Department of Homeland Security
Program (TRIP)                        Security Traveler Redress Inquiry       Redress and Response Records
Provide a one-stop mechanism          Program, January 18, 2007               System DHS/ALL-005, January
for individual redress                                                        18, 2007, 72 FR 2294
Source: The DHS Privacy Office at http://www.dhs.gov/xabout/structure/editorial_0338.shtm. This page, which was
last reviewed/modified on March 12, 2009, has the TSA Privacy Impact Assessments and System of Records Notices.
The program missions are found in the respective Privacy Impact Assessments.




                         Transportation Security Administration Privacy Stewardship 


                                                   Page 23

Appendix D
Cross Reference of DHS Privacy Framework With Component Privacy Officer
Duties

                         DHS PRIVACY FRAMEWORK – FUNCTIONAL AREAS
                            ORGANIZATIONAL COMMITMENT TO PRIVACY
                    Establish organizational oversight and implement privacy activities.

    -   Responsible for effectively communicating, in coordination with the DHS Privacy Office, privacy
        initiatives associated with TSA with a variety of internal and external constituents, including the
        media, industry stakeholders, various offices within DHS and other federal agencies.
    -   Serve as the Chief Privacy Officer’s main point of contact at TSA to implement the policies and
        directives of the DHS Privacy Office in carrying out Section 222 of the Homeland Security Act of
        2002, as amended.

                              POLICIES FOR PROPER HANDLING OF PII
                           Define and promote privacy policies and procedures.

    -   Identify privacy issues related to TSA and apply appropriate privacy policies in accordance with
        federal privacy laws, and DHS and TSA policies developed to ensure that TSA protects the privacy
        of individuals affected by its activities.

                              PRIVACY COMPLIANCE MANAGEMENT
  Implement tools and processes for privacy compliance (including reporting requirements, privacy impact
     assessments, systems of records notice, privacy incident handling, and privacy rules of conduct).

    -   Assist in draft and review PTAs, PIAs, and SORNs, as well as any associated privacy
        documentation, as dictated by DHS Privacy Office policy and required by law, including the
        Privacy Act of 1974, the E-Government Act of 2002, and the Homeland Security Act of 2002.
    -   Provide oversight on the collection, use, dissemination, and maintenance of PII at TSA.
    -   Serve as TSA’s privacy point of contact to handle privacy incident responses as defined in the DHS
        Privacy Office’s Privacy Incident Handling Guide for all TSA disclosures involving PII.
    -   Provide to the DHS Privacy Office information related to privacy, in coordination with the TSA
        information system security manager necessary for the quarterly and annual FISMA reporting
    -   Monitor TSA’s compliance with all applicable federal privacy laws and regulations, implement
        corrective, remedial, and preventive actions and notify the DHS Privacy Office of privacy issues or
        any non-compliance, whenever necessary.

                      NOTICE, COMPLAINTS, AND REDRESS FOR INDIVIDUALS
                  Establish processes for notices, complaints, and redress for individuals.

    -    Provide oversight on the collection, use, dissemination, and maintenance of PII at TSA.

                                PRIVACY AWARENESS AND TRAINING
                   Support privacy requirements through privacy awareness and training.

    -    Implement and monitor training for TSA employees in coordination with the DHS Privacy Office.

Source for Component Privacy Officer Duties: DHS Privacy Office Action Memorandum, Designation of Component
Level Privacy Officers, May 3, 2007. (OIG applied to TSA.)




                        Transportation Security Administration Privacy Stewardship

                                                  Page 24
    Appendix E
    Cross Reference of DHS Privacy Framework With Criteria Applied to TSA
    Privacy Stewardship

    As part of its privacy framework, the DHS Privacy Office identified five functional areas
    necessary for component privacy officers to promote a culture of privacy. As part of the
    TSA Privacy Stewardship audit, OIG applied criteria to TSA’s functional areas as
    described below.

                             DHS PRIVACY FRAMEWORK – FUNCTIONAL AREAS
                                   ORGANIZATIONAL COMMITMENT TO PRIVACY
                          Establish organizational oversight and implement privacy activities.
-     TSA Management Directive 2100.2, Privacy and Information Collection Policy (establish OPPC oversight for PII
      and privacy implementation)
-     TSA Management Directive 3700.4, Handling Sensitive Personally Identifiable Information (establish OPPC
      responsibility for privacy management in compliance with federal privacy laws, directives, and the FIPPs)
-     DHS Privacy Office Action Memorandum, Designation of Component Level Privacy Officers, May 3, 2007
      (organizational oversight of PII)
-     DHS Management Directive 0470.2, Privacy Act Compliance (privacy compliance and awareness)
-     OMB M-05-08, Designation of Senior Agency Officials for Privacy
-     OMB Circular A-130, Management of Federal Information Resources (privacy management)
-     Privacy Act of 1974 (establish safeguards to protect PII)
-     Fair Information Practice Principles (accountability, auditing, security)
                                     POLICIES FOR PROPER HANDLING OF PII
                                  Define and promote privacy policies and procedures.
-     TSA Management Directive 3700.4, Handling Sensitive Personally Identifiable Information (establish policies and
      procedures for privacy compliance)
-     DHS 4300A, Sensitive Systems Handbook (privacy statement at publicly accessible entry)
-     DHS Privacy Office Action Memorandum, Designation of Component Level Privacy Officers, May 3, 2007
      (implement privacy laws, policies, and directives)
-     OMB M-06-15, Safeguarding Personally Identifiable Information (establish safeguards to protect PII)
-     OMB M-06-19, Reporting Incidents Involved Personally Identifiable Information and Incorporating the Cost for
      Security in Agency Information Technology Investments
-     OMB M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable Information (privacy
      rules of conduct)
-     Privacy Act of 1974 (establish safeguards to protect PII)
-     Fair Information Practice Principles (PII purpose, use limitation, security)
                                        PRIVACY COMPLIANCE MANAGEMENT
     Implement tools and processes for privacy compliance (including reporting requirements, privacy impact
          assessment, system of records notice, privacy incident handling, and privacy rules of conduct).
-     TSA Management Directive 2100.2, Privacy and Information Collection Policy (privacy impact assessment, system
      of records notice)
-     TSA Management Directive 3700.4, Handling Sensitive Personally Identifiable Information (handling sensitive PII,
      privacy incident handling, employee responsibility)
-     DHS Privacy Office, Privacy Incident Handling Guidance
-     DHS Management Directive 0470.2, Privacy Act Compliance (privacy compliance and awareness)
-     DHS Privacy Office Action Memorandum, Designation of Component Level Privacy Officers, May 3, 2007 (privacy
      incident response)
-     OMB M-03-22, OMB Guidance for Implementing the Privacy Provisions of the E-Government Act (post website
      privacy notices, privacy impact assessments)
-     OMB M-06-15, Safeguarding Personally Identifiable Information (privacy rules of conduct)
-     OMB M-06-20, FY 2006 Reporting Instructions for the Federal Information Security Management Act and Agency
      Privacy Management (reporting compliance)
-     OMB M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable Information (privacy
      rules of conduct)
-     OMB Circular A-130, Management of Federal Information Resources (privacy reporting)
-     Privacy Act of 1974 (privacy rules of conduct, system of records notice, establish safeguards to protect PII)
-     E-Government Act of 2002 (post website privacy notices, privacy impact assessments, electronic inventory of PII)




                            Transportation Security Administration Privacy Stewardship 


                                                        Page 25

    Appendix E
    Cross Reference of DHS Privacy Framework With Criteria Applied to TSA
    Privacy Stewardship (continued)
-    Federal Information Security Management Act of 2002 (agency-wide information security program)
-    Section 803 of the Implementing Recommendations of the 9/11 Commission Act of 2007 (privacy reporting
     requirements)
-    Fair Information Practice Principles (accountability, auditing, security)
                           NOTICE, COMPLAINTS, AND REDRESS FOR INDIVIDUALS
                       Establish processes for notices, complaints, and redress for individuals.
-    DHS 4300A, Sensitive Systems Handbook (privacy statement at publicly accessible entry)
-    OMB M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable Information (notice)
-    OMB Circular A-130, Management of Federal Information Resources (complaints, redress)
-    Section 803 of the Implementing Recommendations of the 9/11 Commission Act of 2007 (reporting complaints,
     redress)
-    Privacy Act of 1974 (notices, complaints, redress)
-    Fair Information Practice Principles (notices, complaints, redress)
                                      PRIVACY AWARENESS AND TRAINING
                       Support privacy requirements through privacy awareness and training.
-    TSA Management Directive 3700.4, Handling Sensitive Personally Identifiable Information (employee compliance
     with Privacy Act, DHS, and TSA privacy policies)
-    DHS Privacy Office Action Memorandum, Designation of Component Level Privacy Officers, May 3, 2007 (monitor
     privacy training)
-    DHS Management Directive 0470.2, Privacy Act Compliance (privacy compliance and awareness)
-    OMB M-06-15, Safeguarding Personally Identifiable Information (privacy training)
-    OMB M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable Information (privacy
     training and awareness)
-    Privacy Act of 1974 (privacy rules of conduct)
-    Fair Information Practice Principles (accountability, training)
  Source: DHS Privacy Office (OIG added criteria as applied to TSA’s privacy efforts.)




                          Transportation Security Administration Privacy Stewardship

                                                     Page 26
Appendix F
Fair Information Practice Principles

The DHS Privacy Office, Privacy Policy Guidance Memorandum Number: 2008-01,
December 29, 2008, adopted the Fair Information Practice Principles as its privacy policy
framework for application by DHS programs and activities. The following are the eight
specific principles that guide privacy policy.

                         THE FAIR INFORMATION PRACTICE PRINCIPLES

  Transparency: DHS should be transparent and provide notice to the individual regarding its
  collection, use, dissemination, and maintenance of personally identifiable information (PII).


  Individual Participation: DHS should involve the individual in the process of using PII and, to
  the extent practicable, seek individual consent for the collection, use, dissemination, and
  maintenance of PII. DHS should also provide mechanisms for appropriate access, correction,
  and redress regarding DHS use of PII.


  Purpose Specification: DHS should specifically articulate the authority that permits the
  collection of PII and specifically articulate the purpose or purposes for which the PII is
  intended to be used.


  Data Minimization: DHS should collect only PII that is directly relevant and necessary to
  accomplish the specified purpose(s) and retain PII only for as long as is necessary to fulfill the
  specified purpose(s).


  Use Limitation: DHS should use PII solely for the purpose(s) specified in the notice. Sharing
  PII outside the department should be for a purpose compatible with the purpose for which the
  PII was collected.


  Data Quality and Integrity: DHS should, to the extent practicable, ensure that PII is accurate,
  relevant, timely, and complete.


  Security: DHS should protect PII (in all media) through appropriate security safeguards
  against risks such as loss, unauthorized access or use, destruction, modification, or
  unintended or inappropriate disclosure.


  Accountability and Auditing: DHS should be accountable for complying with these principles,
  providing training to all employees and contractors who use PII, and auditing the actual use of
  PII to demonstrate compliance with these principles and all applicable privacy protection
  requirements.




                      Transportation Security Administration Privacy Stewardship 


                                               Page 27

Appendix G
TSA Culture of Privacy Survey

From November through December 2008, we surveyed TSA personnel to determine their
level of privacy awareness and knowledge and to obtain recommendations for improving
privacy management. We developed the privacy questionnaire with OPPC’s involvement
to ensure compatibility with TSA’s existing privacy culture. TSA personnel were
emailed a link to a secure site to complete an online privacy questionnaire. All 2,285
responses were confidential, and results were accessible only by the OIG. The portion of
the survey that addressed knowledge of privacy was derived from, but not limited to, the
criteria in appendix E.

              DEMOGRAPHICS OF PARTICIPANTS OF TSA CULTURE SURVEY
Level of Job Responsibility
     -   Entry-level employees (27.3%)
     -   Mid to high-level (non-manager) employees (40.7%)
     -   Supervisors/managers (32.0%)
Location
     -   Headquarters (8.1%)
     -   Field offices (70.1%)
     -   Operation centers (4.2%)
     -   Other (17.6%)
Length of Service
     -   Less than 3 months (2.8%)
     -   3–12 months (9.3%)
     -   1–3 years (13.6%)
     -   More than 3 years (74.3%)
Source: OIG Culture of Privacy Survey


TSA personnel provided 875 additional written comments regarding privacy awareness
and training, privacy accountability and enforcement, understanding privacy policy,
internal privacy communications, privacy stewardship, and culture of privacy. The
following figure summarizes these results.

                                 Culture of Privacy Survey Results


                                                                     Privacy Awareness and
                                14%                                  Training
                                         3%
                   12%                                               Privacy Accountability and
                                            6%                       Enforcement
                                                                     Understanding Privacy Policy
                                              11%
                                                                     Internal Privacy
                                                                     Communications
                                                                     Privacy Stewardship

                         54%                                         Culture of Privacy



Source: OIG Culture of Privacy Survey




                         Transportation Security Administration Privacy Stewardship

                                                    Page 28
Appendix H
Laws, Regulations, Directives, and Guidance Related to TSA Privacy Stewardship

                                           LEGISLATION


Privacy Act of 1974, 5 U.S.C. § 552a. (1974). http://www.opm.gov/feddata/USC552a.txt

E-Government Act of 2002, Public Law 107-347, 44 U.S.C. Ch 36. (2002).
http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=107_cong_public_laws&docid=f:publ347.107

Federal Information Security Management Act of 2002 (FISMA), 44 U.S.C. § 3541, et seq. (2002).
http://csrc.nist.gov/drivers/documents/FISMA-final.pdf

Implementing Recommendations of the 9/11 Commission Act of 2007, Public Law 110-53, 121 Stat. 266,
360. (2007). http://www.nctc.gov/docs/ir-of-the-9-11-comm-act-of-2007.pdf

                                        OMB MEMORANDA 


OMB M-06-20: FY 2006 Reporting Instructions for the Federal Information Security Management Act
and Agency Privacy Management. (July 17, 2006).
http://www.whitehouse.gov/omb/memoranda/fy2006/m06-20.pdf

OMB M-07-16: Safeguarding Against and Responding to the Breach of Personally Identifiable
Information. (May 22, 2007). http://www.whitehouse.gov/omb/memoranda/fy2007/m07-16.pdf

                                  DIRECTIVES AND GUIDANCE 


DHS Management Directive Number 0470.2: Privacy Act Compliance. (October 6, 2005). (No external
link.)

DHS 4300A: Sensitive Systems Handbook. (July 2009). (No external link.)

DHS Privacy Office: Privacy Incident Handling Guidance. (September 10, 2007).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_guide_pihg.pdf

DHS Privacy Office Action Memorandum: Designation of Component Level Privacy Officers. (May 3,
2007). (No external link.)

DHS Privacy Policy Guidance Memorandum Number 2008-01: The Fair Information Practice
Principles: Framework for Privacy Policy at the Department of Homeland Security. (December 29, 2008).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_policyguide_2008-01.pdf

TSA Management Directive Number 3700.4: Handling Sensitive Personally Identifiable Information.
(December 9, 2008). (No external link.)

TSA Management Directive Number 2100.2: Privacy and Information Collection Policy. (July 25,
2005). (No external link.)




                       Transportation Security Administration Privacy Stewardship

                                                Page 29
Appendix I
Major Contributors to This Report

                   System Privacy Division

                   Marj Leaming, Director
                   Eun Suk Lee, Lead Privacy Auditor
                   Philip Greene, System Privacy Auditor
                   Cory Missimore, Privacy Specialist
                   Zach Miller, Management and Program Assistant

                   Shannon Frenyea, Referencer




                 Transportation Security Administration Privacy Stewardship

                                          Page 30
Appendix J
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      Acting General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Administrator for Transportation Security Administration
                      Transportation Security Administration Audit Liaison
                      Chief Privacy Officer
                      Officer for Civil Rights and Civil Liberties

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                  Transportation Security Administration Privacy Stewardship 


                                           Page 31

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
